                              CLOSEOUT FOR M92050017

       On 21 May 1992 OIG received a letter from Dr.                          the complainant,
                                               ce against Dr.                   the subject and
                                                 The complainant, an associate professor of

proposal submitted to NSF. The funded 0 proposal, ,                       is entitled,  "
                                              d worked with the subject on the substance of a

                                        ." The complainant alleged that the subject failed to
acknowledge his contribution to the proposal, failed to honor their agreement that he would be
a consultant on the project, and plagiarized text from a manuscript of a paper the complainant
had co-authored with another scientist into the proposal.

        The complainant provided materials, proposal drafts, letters, fax and electronic mail
exchanges, as well as copies of his own publications to show that he had participated in drafting,
and subsequently editing, the proposal. The materials showed that the two had discussed the
possibility that the complainant could be a consultant on the project, but a formal agreement had
not been executed. The materials also showed that a significant disagreement had developed late
in the collaborative process when the subject discovered that the complainant had a consultant
arrangement with one of the subject's competitors.

       The complainant claimed that the text of two handwritten documents, by the complainant,
together formed the original draft of the proposal. OIG compared the submitted proposal with
the handwritten documents, copies of editing corrections provided by the complainant, and the
manuscript of his co-authored paper. OIG identified 11 sections, including text, two figures,
and some formulae, in the proposal that appeared to be substantially similar or identical to the
draft. Eight of the complainant's suggested editing changes were found in the submitted
proposal. A few lines of text from the complainant's co-authored manuscript appeared in the
proposal without offset or citation to the source document. The submitted proposal did not
contain an acknowledgement for the complainant's contributions.

       In response to OIG inquiries, the subject stated that he had conceived the proposal idea
and developed its outline. He provided copies of working notes to support his assertion. Rather
than being the collaborator described by the complainant, the subject characterized himself as
the recipient of numerous unwanted contributions and suggestions from the complainant.
Materials supplied by the conlplainant and the subject showed that the complainant voluntarily
supplied the subject with materials. However, they also show that the subject, on several
occasions, solicited advice and tecl~nicalassistance from the complainant. OIG concluded that
some of the complainant's efforts may have been unwanted but the complainant had contributed

                                           Page I of 3                                   M92- 17
                              CLOSEOUT FOR M92050017

substantially to the final content of the proposal and hence warranted an acknowledgement. The
subject's failure to acknowledge the con~plainant'scontributions to the 11 sections of material
and the 8 editing changes was the most serious allegation in this case. On the basis of OIG's
review of the materials frorn both the complainant and subject, OIG concluded that the subject
did not acknowledge the complainant's contributions because of the significant disagreement
between the two which terminated the relationship. However, interpersonal problems are not
an adequate justification for omitting an acknowledgment.

        The subject said he could not recall why he had not provided a citation or offset for the
text copied from the complainant's manuscript. He indicated that a citation in the proposal to
another paper by the complainant that closely followed the copied material was an attempt to cite
the complainant as the author of the material. He said that the formulae in-the proposal were
not developed by the complainant but were the work of another scientist. The proposal text
preceding the formulae contained a citation to the work of the other scientist; however, OIG
found that the cited work did not contain the formulae. The subject subsequently identified an
unpublished co-authored manuscript by the other scientist and another individual as the source
for these formulae. When asked if he had permission to use the unpublished material he then
identified a published paper by the same scientists which contained the same formulae as the
manuscript originally identified as the source document. These practices appeared to show a
pattern of careless and sloppy citation that do not meet NSF's expectations, rather than an effort
to conceal the source of copied materials.

        In its review of the subject's proposal and his responses to OIG's inquiries, OIG found
several inaccurate or missing references and errors in the proposal bibliography. OIG again
viewed the subject's citation and reference errors as sloppy writing. OIG believed the best
resolution to this case was for the subject to correct the various errors in the award jacket and
to provide the complainant with an acknowledgment for his work. OIG did not believe that the
errors in the award jacket and the failure to acknowledge the complainant's efforts warranted
an investigation.

        OIG suggested the subject prepare an amendment to his award that corrected the citation
and reference errors, properly offset and cited the copied material, and acknowledged the
complainant. The subject provided a draft of an amendment to his award that was intended to
correct the text citation errors and identify the copied material and its source. He did not
provide an acknowledg~nentfor the complainant's efforts, nor were the bibliographic errors
corrected. OIG's review of this draft revealed additional citation and bibliographic errors. OIG
informed the subject that the additional errors and the insufficently explained omission of an
acknowledgment for the complainant's substantial efforts raised sufficient concern about his
practices that it was opening an investigation into these practices.



                                           Page 2 of 3
                             CLOSEOUT FOR ha92050017

        OIG questioned the subject about each of the citation and bibliographic errors that had
occurred in his award, in his responses to OIG queries, and in his draft amendment. The subject
was also asked to explain his failure to provide the complainant with an acknowledgment for his
efforts on the proposal drafts. The subject responded that he had not viewed a proposal as
conforming to rigorous standards of scholarship. OIG explained that proposals are indeed
expected to adhere to the highest standards of scholarship.

       The subject responded by providing explanations to clarify his citation practices. The
subject also provided OIG with a new draft of an amendment to the award that corrected the
errors OIG had found, provided an accurate bibliography, and correctly offset the copied text
and cited the source document. The draft also contained an acknowledgement of the
complainant's contributions to the proposal draft. OIG confirmed that the subject had, at OIG's
suggestion, forwarded the a~nend~nent    to the NSF program for inclusion in the award jacket.
OIG concluded that the subject did not fully understand the need for accurate citations in
proposals submitted to NSF and that his citation practices were careless; they were not designed
to provide the subject credit for the work of others. Careless actions such as these do not meet
the expectations of scholarship or standards set by the scientific community; however, they are
not considered misconduct in science.

        OIG concluded that the subject's award amendment and his explanations about his citation
practices adequately responded to the allegations in this case. Further, the subject's attempts
at correcting his numerous errors has served as a valuable learning experience, heightening his
awareness of NSF's expectation that subnlitted proposals will be carefully prepared.

This case was closed.


cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                          Page 3 of 3
